                                         CLOSEOUT FOR M94040018
                              the Research Standards OfEcer and Associate Vice Chancellor for
Research at the                           . informed OIG on April 26,199$, that the university
had conducted an'&quiry into allegations of misconduct against Professor                           (the
subject). She informed OIG that, becausethe university found that the allegations had substance, it had
appointed an investigative panel and was proceeding with an inves@@on              The university was
n o w OIG because the subject had rsceived financial support for his mearchh m NSF.'
        The univedy convened an inves@tive panel composed of two faculty members fiom the
university and one h m outside the unbmi& all panel members were in the subject's research
field. The panel's task, as stated in their report, was to detarmine (i) "the exkkace and extent of
redundancy" in the subject's publications and ( i i "whether the methodology of and contibutions to the
research reported in [the subject's] publications [were] aauate& stated and properly a#ributed." The
panel was also supposed to deteamine whether the subject's actions under either heading comtbded
misconduct in science,
          There were several allegations telated to methodology and authorship credit (ii).These weae:
1) (a) The subject f a i d to adequately acknowledge authorship credit by not naming
           (student 1) as a &or      on the m n d of two papers that wae based d e l y on the
   student's thesis work (b) The subject's vexbath use of textual mated fiom student 1's thesis in
   the second publication was plagiarism
2) The subject inappropriatelytook credit for work o f                       (Student 2) by jointly
   publishing with him a kpaper that was allegedly prepared only by student 2.
3) (a) The subject's publication of an article, mathored with student 2, misappmp&ted credit by
   refbencing a numerical code (wri#en by the subject and a collaborator) that was diffkent fiom the
   one actuaUy used to calculate the d t s (written by student 2). (b) The erroneous listing of the
   code itselfwas d a e n t l y misleading as to be misconduct in science.
4) The dkence for data supplied by.                .           '   (the company) was improperly omitted.
                             the u&ersity's Chancellor sent a letter and a copy of the investigative
report to OIG. The committee fbrind, with respect to the allegations of redundancy (i), that there
existed duplication of publications (four pairs of redundant publications) and decided that, although
"inappropriate for a major research university," this deviation was not seaious and was not
misconduct. Their decision conoerning the seriousness of the deviation was based in part on the nature
of the redundancies; the redundant pairs of publications were g e n d y a conference proceeding, which
is typically not peer reviewed, followed by publication in a refereed journal. The Chancellor agreed

    1
        The award is a Pmidatial Young heaigamr Award,;
                        This type of grant usually covers an entire researchprogram,


                                                       Page 1 of 4
                                    CLOSEOUT FOR M94040018


with the finding and added that "this conduct deviates from accepted standards in science, but that it
does not represent a sufficiently serious deviation that it rises to the level of misconduct in science and
engineering when measured against the examples contained in the NSF definition, including those of
fabrication and falsification of data." OIG accepted the judgment of the investigative panel that in view
of the factors cited above, the redundancy in the subject's publications did not rise to the level of
misconduct in science.
         Related to the second class of allegations (ii), the investigative panel determined that issue (2),
the subject's inclusion of himself as an author of the publication based on student 2's term paper, was
within the accepted practices of the community; the Chancellor agreed. The only evidence to support
this allegation was the statements of student 2. Given the view of the panel that "it is common practice
for the faculty advisor who plays an active role in the selection and development of a research topic by
a student whom he or she financially supports [conditions met here] to be included as a co-author on
papers reporting the research," OIG concluded that the subject's claim of authorship under these
conditions could not be considered misconduct in science.
         Pertaining to allegation (4), the subject produced a letter fi-om the company to hun, dated after
the inquiry began, that stated that as the subject and a company official had discussed previously, the
company preferred that its name not be used as the source of his data in his publications. Since the
subject was apparently complying with the company's request, OIG concluded that the lack of citation
for the source of data was not misconduct in science.
        The committee concluded that with respect to allegations (1) and (3), there were deviations
from accepted practices, but that they did not rise to the level of misconduct. OIG asked the
Chancellor to clanfl why the university believed, in light of the facts brought forth, the subject's
deviations from accepted practices with regard to (1) and (3) were not serious. In addition, to help
OIG evaluate the seriousness of the deviations, OIG asked the university for more evidential materials
and requested further interviews with the subject's students.
        The Chancellor's response indicated that he accepted the panel's conclusions as an official of
the university even though he disagreed with some of them personally. The Chancellor personally
believed that the omission of student 1 as an author on the second publication, allegation (la), was a
serious deviation, but did not wish to overturn the decision of the faculty panel. He noted that he has
introduced policy changes that resulted fi-om this investigation that should be helpll in future inquiries
should they arise. The Chancellor informed OIG that the subject had accepted a position at another
university.
         The university's decision left OIG with no authoritative judgment or reasoning from the
university and with conflicting, unresolved evidence as to the seriousness of the subject's deviations
fi-om accepted practices. OIG requested that the university reconvene the investigative panel to clanfl
its reasoning related to issues (1) and (3). The university declined to do so. OIG consulted with two
experts familiar with research and publication practice within the subject's field and asked them if they
considered the subject's actions in instances (1) and (3) to be serious deviations from accepted
practice. The first consultant indicated that she considered the subject's actions on both of these issues
serious deviations fi-om accepted practices. The second consultant offered conclusions on allegations


                                               Page 2 of 4                                         M94- 18
                                    CLOSEOUT FOR M94040018


(1) that were conditional or open-ended; he did not provide his personal assessment of the allegation.
His conditional assessment was based on the working relationship between the subject and student 1
together with the quantity and nature of the subject's input into his student's research. He decided that
the subject's reference to the code, allegation (3), was not a serious deviation because the reference
indicated the general methodology used to derive the code, not necessarily the utilization of a specific
code, and that the reference appeared in an unrefereed conference proceeding. M e r OIG requested
that he apply his own criteria to reach a decision on allegation (I), the second consultant visited OIG
and examined relevant evidential materials. He then concluded that the subject did not commit
misconduct in science.
        Although there was a general consensus by the faculty panel, the Chancellor, and the outside
consultants that the subject's deprivation of authorship credit fiom student 1, allegation (la),
represented a deviation fi-om accepted practices, the widespread views of the facts as they relate to
misconduct indicated that there was no clear consensus in the community as to the seriousness of the
deviation. At the time of the inquiry, the subject and student 1 both signed a statement indicating that
they were both satisfied with the appropriation of authorship credit. The panel noted that the subject
referenced student 1's thesis and acknowledged student 1's contributions in the sole-authored
publication. The panel reasoned that insofar as the subject acknowledged student 1, ". . . this case is
not an attempt to claim that the work of others is completely his own" and concluded that the subject's
actions in this instance did not rise to the level of misconduct in science. OIG noted that the subject
and student 1 had disagreed with the interpretation of results after the jointly published conference
proceeding but before the publication of the solely authored manuscript; student 1 did not ascribe to
the subject's interpretation of the data. OIG reasoned that this disagreement, together with the
disparate interpretation within the community of the subject's actions, are the basis for a conclusion that
the subject's actions deviated, but not seriously, fiom the accepted practices of the community with
regard to the allegation raised in (1a).
        Concerning the allegation of plagiarism (lb), the subject used his and student 1's joint
publication as the basis for his siigle-authored publication. Although there was significant verbatim
textual overlap between the publications, the copied text was primarily in the introductory and
methodology sections; both the subject and student 1 agree that there are diierences in the conclusions
of the two papers. It is OIG's view that the subject, as co-author of the first publication, was entitled to
use material in his subsequent publications. Even though he could have been more charitable in
referencing the contributions of student 1, this action, allegation (lb) was not misconduct in science.
        Regarding allegation (3), there are two distinct parts. One is the incorrect reference to the
numerical code that produced the results and the other is the deprivation of authorship credit fiom
student 2 by the incorrect reference. Regardig the misrepresentation, the investigative panel and the
first consultant concluded that a member of the subject's professional community would not read the
reference as belonging to a class of codes instead of a specific code. They indicated that it was
misleading to represent it that way, but it was not misconduct in science. The first consultant, but not
the second, concluded that this misleading reference of the code indicated a serious deviation from
accepted practices. OIG concluded that the subject deviated fiom accepted practices when he


                                               Page 3 of 4
                                    CLOSEOUT FOR M94040018


misrepresented the actual numerical code in his publication but that this deviation was not sufficiently
serious to be misconduct in science.
        Concerning the deprivation of authorship credit for developing the code, again, only the first
consultant considered this action by the subject to be a serious deviation from accepted practices. In
fact, the second consultant suggested that the results could have been obtained from a variety of
codes. He implied that the seriousness of the lack of proper citation was reduced because interest of
the community in student 2's code may be minimal if the authors had no plans to edit the conference
proceedings paper and publish it in a refereed journal (as is often done as indicated by the panel when
they addressed the redundancy allegations). He fbrther suggested that if student 2's code were indeed a
substantial contribution, he should prepare his own manuscript, providing details and demonstrating
applicability, for publication. The university committee and one of the two consultants concluded that
the subject's actions were not misconduct in science. In this case, OIG concluded that the subject
could have been more accurate in assigning authorship credit for the numerical code, but that his
actions did not rise to the level of misconduct.
         Finally, while evaluating the subject's manuscripts, the first consultant raised an additional
concern regarding differences in the conference proceeding published jointly by the subject and student
 1 and the following journal publication of the subject only. She noticed that the subject changed
several of the figure captions without any mention of the changes, i.e., the data are presented differently
in the two publications. For scientific reasons she indicated that, if the underlying data were the same,
these different representations raise questions about the honesty with which the data was reported.
OIG asked the second consultant about this discrepancy. He provided a textbook reference indicating
that, for the conditions valid in the subject's analysis and within the measured accuracy of the data, it
was equivalent to use either of the published captions. OIG concluded that the subject's failure to
indicate why he had changed the graph label was sloppy, but not misconduct in science.
       OIG concludes that although the subject's actions were, in some instances, deviations from
accepted practices, they were not so serious as to be judged misconduct in science.
        This investigation is closed and no fbrther action will be taken on this case.



cc: Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                               Page 4 of 4
